 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

      BUREAU OF JUSTICE ASSISTANCE 

STATE AND LOCAL EMERGENCY PREPAREDNESS 

PROGRAM GRANT TO THE CITY OF JERSEY CITY 

         JERSEY CITY, NEW JERSEY





        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 



        Audit Report GR-70-11-003 

                March 2011

               AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

                    BUREAU OF JUSTICE ASSISTANCE 

              STATE AND LOCAL EMERGENCY PREPAREDNESS 

              PROGRAM GRANT TO THE CITY OF JERSEY CITY 


                                EXECUTIVE SUMMARY 


      The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of the State and Local Emergency
Preparedness Program (SLEP) grant, number 2003-DD-BX-1014, awarded to
the City of Jersey City, New Jersey (Jersey City), by the Office of Justice
Program’s Bureau of Justice Assistance (BJA). In August 2003, BJA awarded
Jersey City a total of $10,700,000. The purpose of the SLEP grant award
was to improve both the capability and reliability of Jersey City’s emergency
and public service communications systems.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed Jersey City’s program
performance in meeting the grant objectives and overall accomplishments.

      We determined that Jersey City did not fully comply with the grant
requirements we tested. We reviewed Jersey City’s compliance with nine
essential grant conditions and found internal control weaknesses in seven of
the nine areas we tested: (1) internal control environment, (2) grant
expenditures, (3) progress and financial reporting, (4) budget management
and control, (5) monitoring contractors, (6) compliance with award special
conditions, and (7) program performance and accomplishments. Because of
the deficiencies identified, we are questioning $1,125,000, or 10.5 percent,
of the grant funds.1

      In performing our fieldwork, we found Jersey City did not comply with
the essential requirements of the grant because the communications center,
originally scheduled for completion in March 2004, was not operational at
the time of our fieldwork in September 2009. Additionally, grant
expenditures were not supported by detailed invoices, financial and progress
reports were inaccurate, submitted late, or provided insufficient detail
regarding the progress of the project, inaccurate accounting reports were
used to manage the program’s budget, consultants managed by the city

       1
        The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs.


                                               i
were not adequately monitored, and the program’s performance was not
adequately monitored.

     These items are discussed in detail in the findings and
recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with Jersey City officials and
have included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from Jersey City and OJP, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of the actions
necessary to close the recommendations can be found in Appendix V of this
report.




                                     ii
                               TABLE OF CONTENTS



INTRODUCTION ....................................................................... 1 


Office of Justice Programs ............................................................ 1      

Bureau of Justice Assistance ......................................................... 1       

State and Local Emergency Assistance Program ............................. 2                   

Program Overview....................................................................... 2      

Our Audit Approach ..................................................................... 3     


FINDINGS AND RECOMMENDATIONS ....................................... 5 


Compliance With Essential Agreement Requirements ....................... 5 

Internal Control Environment ....................................................... 5 

Grant Expenditures .................................................................... 6 

Reporting .................................................................................. 8 

Drawdowns .............................................................................. 10 

Budget Management and Control................................................ 10 

Monitoring of Contractors ........................................................... 12 

Accountable Property................................................................. 12 

Compliance with Award Special Conditions.................................... 13 

Program Performance and Accomplishments ................................. 14 

Conclusions.............................................................................. 15 

Recommendations..................................................................... 15 


APPENDIX I - OBJECTIVES, SCOPE AND METHODOLOGY......... 17 


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .... 19 


APPENDIX III – JERSEY CITY, NEW JERSEY RESPONSE 

   TO THE DRAFT AUDIT REPORT ......................................... 20 


APPENDIX IV – OFFICE OF JUSTICE PROGRAMS RESPONSE 

   TO THE DRAFT AUDIT REPORT ......................................... 23 


APPENDIX V – OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT .................................................... 27

                                  INTRODUCTION

      The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of the State and Local Emergency
Preparedness Program (SLEP) grant, number 2003-DD-BX-1014, awarded to
the City of Jersey City, New Jersey (Jersey City) by the Office of Justice
Program’s Bureau of Justice Assistance (BJA). In August 2003, BJA awarded
Jersey City a total of $10,700,000. The purpose of the SLEP grant award
was to design, acquire, and implement a new communications system.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed Jersey City’s program
performance in meeting grant objectives and overall accomplishments. The
table below shows the total funding period for the grant.

         BJA – SLEP AWARD TO THE CITY OF JERSEY CITY, NJ
                  PROJECT                        AWARD
        AWARD   PERIOD START                    END DATE   AWARD AMOUNT
                    DATE
2003-DD-BX-1014 04/01/2002                    12/31/2008    $10,700,000
      Source: Office of Justice Programs

Office of Justice Programs

       The Office of Justice Programs (OJP), within the U.S. Department of
Justice, provides the primary management and oversight of the grant we
audited. Through the programs developed and funded by its bureaus and
offices, OJP works to form partnerships among federal, state, and local
government officials in an effort to improve criminal justice systems,
increase knowledge about crime, assist crime victims, and improve the
administration of justice in America.

Bureau of Justice Assistance

        The Bureau of Justice Assistance (BJA) is one of five components
within the OJP. OJP’s other components include the: (1) Bureau of Justice
Statistics, (2) National Institute of Justice, (3) Office of Juvenile Justice and
Delinquency Programs, and (4) Office for Victims of Crime. The BJA
supports law enforcement, the courts, and corrections institutions through
programs that emphasize victim services, technology, and prevention
initiatives. The BJA’s Programs Office coordinates and administers all state



                                           - 1 -

and local grant programs and acts as BJA's direct line of communication to
states, territories, and tribal governments by providing assistance and
coordinating resources.

State and Local Emergency Preparedness Program

       The Edward Byrne Memorial State and Local Law Enforcement
Assistance Program (Byrne Formula Grant Program) is a partnership among
local, state, and federal governments to create safer communities. BJA is
authorized to award grants to states for use by states and units of local
government to improve the functioning of the criminal justice system with
emphasis on violent crime and serious offenders.

      In fiscal year (FY) 2002, as a result of a specific congressional
appropriation under the Byrne Formula Grant Program, BJA provided funds
to state and local governments affected by the September 11 terrorist
attacks through the State and Local Preparedness Program (SLEP). Twenty-
six awards totaling $251.1 million were made to cover each jurisdiction’s
expenses for emergency preparedness equipment, training, and other public
safety purposes.

Program Overview

       Jersey City, New Jersey, is located in an urban area adjacent to the
New York City metropolitan area. Thousands of commuters travelling to
Manhattan pass through the city each day via trains, buses, subways,
ferries, and automobiles. The volume of commuters and the considerable
number of local residents produce a significant workload for city service
providers – first responders, police and fire, and other public employees.
City radio frequencies are heavily used and the volume of traffic sometimes
interferes with the city’s radio communications. The events surrounding the
September 11 terrorist attacks demonstrated that communications between
public agencies responding to crisis are essential. Prior to receiving the
grant award, Jersey City reported that the police department’s
communication system had reached the end of its useful life and needed to
be replaced.

      At the time of the award, Jersey City had been designated a fiscally
distressed city by the State of New Jersey. Jersey City requested federal
funds to replace its outmoded communications system with state-of-the-art
equipment and software, and hired a consulting firm to make
recommendations for changes to its communications system and manage




                                    - 2 -

the communications upgrade project.2 The specific areas funded included:
(1) equipment for a new communications center, (2) communications
towers, (3) portable radios, and (4) consultant fees to identify
communication requirements, assist in the procurement and installation of
the technology, and provide staff training. The application included a
24-month project timeline beginning with evaluation of the current system
and ending with testing and evaluation of the new system. The application
also included a detailed description of the hourly rates charged by consultant
employees as well as the number of hours worked in each of the project’s
four phases.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grant. The criteria we audited against are found
in the current version of the OJP Financial Guide, which serves as a
reference manual assisting award recipients in their fiduciary responsibility
to safeguard grant funds and ensure funds are used appropriately. In
addition, we tested against criteria found in applicable Office of Management
and Budget (OMB) Circulars, including Circular A-87 (Cost Principals).

       In conducting our audit, we performed testing of Jersey City’s:

       	 Internal control environment to determine whether the financial
          accounting system and related internal controls were adequate to
          safeguard grant funds and ensure compliance with the terms and
          conditions of the grant.

       	 Grant expenditures to determine whether the costs charged to
          the grant were allowable and supported.

       	 Reporting to determine if the required periodic Financial Status
          Reports and Progress Reports were submitted on time and
          accurately reflect grant activity.3

       	 Budget management and control to determine the overall
          acceptability of budgeted costs by identifying any budget deviations


       2
         Jersey City initially received approval from OJP to hire the consultant without
competition, but after the project was delayed, OJP revoked the city’s sole source authority.
       3
          In October 2009, the financial reporting form was changed from the Financial Status
Report to the Federal Financial Report. Because most of the forms we reviewed were
Financial Status Reports, that is how we refer to them in this report.


                                             - 3 -

        between the amounts authorized in the OJJDP grant budget and the
        actual costs incurred for each budget category.

     	 Drawdowns (requests for grant funding) to determine whether
        Jersey City’s requests for funding were adequately supported and if
        the city was managing grant receipts in accordance with federal
        requirements.

     	 Monitoring of contractors to determine Jersey City’s procedures
        and performance in monitoring contractors.

     	 Accountable property to determine Jersey City’s procedures for
        controlling accountable property.

     	 Compliance with award special conditions to determine if
        Jersey City complied with special conditions or criteria specified in
        the award documents.

     	 Program performance and accomplishments to determine
        whether Jersey City achieved the grant’s objectives and to assess
        performance and grant accomplishments.

      When applicable, we also test for compliance in the areas of matching
funds and program income. For the grant award to Jersey City, we
determined that matching funds were not required and the grant program
generated no program income.




                                    - 4 -

                  FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

      We determined that Jersey City did not fully comply with the
      essential grant requirements in the areas we tested. We found:
      (1) internal control deficiencies; (2) weaknesses in grant 

      expenditures associated with unsupported expenditures; 

      (3) inadequate grant reporting, including inaccurate, incomplete,
      or missing financial and progress reports; (4) weaknesses in
      budget management and control; (5) inconsistent contractor
      monitoring; (6) two award special conditions that were not met,
      including a requirement to notify the state’s information
      technology point of contact about the project and a restriction on
      the expenditure or obligation of grant funds; and (7) weaknesses
      with the program’s overall performance. As a result of these
      deficiencies, we question $1,125,000 in expenditures, or 10.5
      percent of the total grant award. These conditions, including the
      underlying causes and potential effects on the grant program,
      are further discussed in the body of this report.

Internal Control Environment

       Our audit included a review of Jersey City’s accounting and financial
management system, specific to the grant audited, and Single Audit Reports
to assess the risk of noncompliance with laws, regulations, guidelines, and
the terms and conditions of the grant. We also interviewed management
staff from the organization, observed accounting activities, and performed
transaction testing of expenditures and accountable property to further
assess risk.

       From our audit, we identified significant internal control deficiencies
that collectively contributed to the issues we discuss in more detail later in
this report. Specifically, we determined that existing procedures for
approving consultant invoices were not always followed, consultant invoices
were paid despite lacking detail and supporting documentation, no evidence
of any consultant monitoring, quarterly financial status reporting was
sometimes late, budgetary controls were inadequate, compliance with award
special conditions was not always accomplished, and successful
accomplishment of the project objectives remained in doubt. These internal
control deficiencies taken collectively not only place grant funds at risk, but
also increase the likelihood that the project goals and objectives may be
compromised and that the communications system may not be successfully
implemented.


                                     - 5 -

Grant Expenditures

      We reviewed grant expenditures to determine if costs charged to the
award were allowable, supported, and properly allocated in compliance with
grant requirements. We obtained detailed accounting records for all
expenditures charged to the grant, and reviewed invoices and available
supporting documentation. In performing our testing, we assessed grantee
compliance with OMB Circular A-87 (Cost Principals).

       Jersey City’s primary grant expenditures included communications-
related equipment and consulting services. We identified 49 invoices
totaling over $10.7 million to support grant expenditures, and we tested
each invoice to determine if: (1) Jersey City followed its internal procedures
for approving grant funds, (2) expenditures were supported by a detailed
invoice describing the purchase or service performed, and (3) each invoice
was properly charged to the grant. All of the invoices we tested included
evidence of payment authorizations documenting the initial pre-purchase
review of the expenditure. However, we found that Jersey City did not
always follow its normal procedures for approving consultant expenditures.
We also determined that documentation supporting the consultant
expenditures was not provided because the invoices submitted for payment
had no detailed explanation or accompanying documentation to support the
work performed by Jersey City’s consultants. For all 33 consultant invoices
we tested, invoices we reviewed in support of consultant expenditures
indicated “services for work performed”, or provided a limited explanation of
the worked performed. Adequately documented program expenditures are
essential to ensure the effective and efficient delivery of the grant program’s
products and services.

      A Jersey City official told us that normally invoices would initially be
reviewed by the grant manager, forwarded to another department for
technical review, if the expenditure included detailed technical specifications,
and then sent to the Jersey City Town Council for each council member’s
review and vote for approval at the monthly Town Council Meeting.
However, for this grant, Jersey City did not follow its normal procedure for
approving the consultant invoices. Six consultant invoices were sent directly
to Jersey City’s Corporation Counsel and the Corporation Counsel reviewed
and approved the invoices prior to the Town Council approving the invoice.

      Jersey City’s grant application included a detailed schedule of the work
to be performed by the consultants. That schedule included the hourly rates
to be paid to each employee, the anticipated number of hours worked by
each employee, and the numbers of hours the employees would bill to each


                                     - 6 -

phase of the project from planning to project completion. In May 2002,
prior to receiving the grant award, Jersey City entered into a contract with
its primary consultant stipulating that the city would pay it based on the
completed phases of the project. However, in all 33 of the consultant
invoices we tested, the consultant invoices lacked the required specificity
and generically described the billings as “services for work performed”, or
provided a limited explanation of the work performed. We found no
schedule for the project work completed and no evidence that the
consultant’s payments were ever tied to the completed phases of the project
or the number of hours worked by the consultants. Invoices stated that
consultant payments should be made for “services rendered”, and some
invoices included a few bulleted points indicating meetings attended or
projects worked on by the consultants. Although all of the invoices that we
reviewed lacked an adequate explanation and supporting documentation of
the actual work performed by the consultant, from our analysis we
determined that these same invoices did have evidence of review and
approval by Jersey City’s Corporation Counsel as well as other city officials.

       Jersey City’s original SLEP grant began in August 2003 and was
scheduled to be completed in March 2004. After six BJA-approved
extensions, the grant ended in December 2008. At the time of our field
work in September 2009, we found that, although handheld radios had been
distributed to the city’s public employee workforce – an approved grant
expenditure of $2.9 million – the city’s communications system was not
operational. The remaining $7.8 million of grant expenditures included
equipment, software, hardware, and consultant fees for the city’s
communications system. Consultant fees were paid to facilitate the
planning, design, and implementation of the communications system

       We asked Jersey City officials why they approved consultant invoices
that included little or no documentation to support the work performed. The
officials agreed that in retrospect they should have required comprehensive
invoices and supporting documentation detailing the work performed by the
consultants, but could offer no explanation as to why that was not done in
this instance.

      Because the communications system was still not operational at the
time of our field work and because the consultant invoices we tested lacked
a detailed explanation or supporting documentation of the consultant work
performed, we could not assure ourselves that: (1) the consultant
expenditures were reasonable; (2) Jersey City paid market prices for the
consultant services; (3) the consultant’s acted prudently in planning,
designing, and implementing the project; and (4) the city effectively



                                    - 7 -

managed the cost of the project. Therefore, we questioned the $1,125,000
paid in consultant fees.

Reporting

Financial Status Reports

      The financial aspects of OJP grants are monitored through Financial
Status Reports (FSRs).4 According to the OJP Financial Guide, FSRs are
designed to describe the status of the program’s funds and should be
submitted within 45 days of the end of the most recent quarterly reporting
period and, even for periods when there have been no program outlays, a
report to that effect must be submitted. Funds or future awards may be
withheld if reports are not submitted or are excessively late.

      Jersey City submitted 21 of the 22 required FSRs, but of those 21, 7
were submitted late. Most of the deficiencies occurred early in the grant
period, and the missing FSR should have been submitted by February 15,
2004. Jersey City submitted five of the seven late FSRs during the 2004-
2005 timeframe, and submitted the two remaining late FSRs in March 2007
and March 2009.

      We also reviewed the total expenditures reported in the 49 invoices
supporting Jersey City’s FSRs and found that the total invoiced expenditures
did not reconcile with the total expenditures reported on the FSRs as follows.

                  Jersey City’s Reported Grant Expenditures
                                 PER                 PER
                               INVOICES              FSR           DIFFERENCE
 Total Expenditures          $10,724,978 $10,700,000                $24,978
   Source: OIG analysis

       We asked the Jersey City official responsible for preparing the FSRs
why the FSRs were submitted late and why the total expenditures on the
FSRs did not equal the total invoiced expenditures. We were told that most
of the late FSRs were submitted at the beginning of the grant period before
this official began preparing the FSRs. This same official was unsure why
the two more recent FSRs were submitted late, or why the actual invoiced
expenditures did not reconcile with the total expenditures reported on the

       4
          In October 2009, the financial reporting form was changed from the Financial Status
Report to the Federal Financial Report. Because most of the forms we reviewed were
Financial Status Reports, that is how we refer to them in this report.



                                            - 8 -

FSR. Moreover, we were told there were no written procedures in place that
detailed a process for promptly reporting invoiced expenditures and
reconciling the expenditures to the total expenditures reported on FSRs.

      Although most of the late FSRs occurred early in the grant period and
the difference between the invoiced expenditures and the expenditures
reported on the FSRs is small, we concluded that both deficiencies provided
indicators of weak internal controls. Strong internal controls provide checks
and balances that ensure program expenditures are reported accurately and
within the required timeframe. Therefore, we considered this to be an
internal control deficiency that warrants the attention of Jersey City officials.

Progress Reports

       Progress reports are submitted to provide information relevant to the
performance of a grant-funded program and the accomplishment of
objectives as set forth in the approved award application. According to the
OJP Financial Guide, these reports must be submitted twice yearly, within 30
days after the end of the reporting periods of June 30 and December 31, for
the life of the award.

       We determined that Jersey City submitted 4 of the 11 required
semiannual reports during the 5-year grant period between August 2003 and
December 2008. Jersey City submitted four progress reports covering the
June 2006 and June 2008 reporting periods, but did not submit a final report
covering the semi-annual period ending in December 2008. Jersey City
submitted its four reports between 29 and 50 days late. One of the reports
provided no new information because the report was merely a copy of the
preceding report. None of the reports addressed the original project time
schedule, or proposed a new detailed project schedule. Jersey City also
reported financial expenditures in its progress reports, however, the financial
expenditures did not reconcile with the expenditures reported in the FSRs.
Jersey City officials told us they delegated progress reporting to one of its
consultants and did not afford these reports any close scrutiny or review the
reports before they were submitted. They also noted that OJP accepted the
city’s progress reports without comment and this created the presumption
that the reports were accepted as filed. In our judgment, Jersey City failed
to submit all of its required progress reports and the reports submitted were
both late and incomplete. The absence of complete and timely periodic
progress reports impairs OJP’s ability to monitor grant activity and increases
the risk the project could be delayed causing grant funds to be wasted or
used for unallowable purposes.




                                      - 9 -

Drawdowns

      Drawdown is a term used by OJP to describe when a recipient requests
grant funding from the total award amount for expenditures associated with
the grant program. The OJP Financial Guide establishes the methods by
which DOJ makes payments to grantees. The methods and procedures for
payment are designed to minimize the time elapsed between the transfer of
funds by the government and the disbursement of funds by the grantee.
Grantees may be paid in advance, provided they maintain procedures to
minimize the time elapsing between the transfer of funds by the government
and the disbursement of funds by the grantee. The guide recommends that
funds be drawn to handle disbursements to be made immediately or within
10 days.

       We interviewed Jersey City officials, reviewed drawdown procedures,
and verified the deposits of grant funds into the city grant account at its
designated financial institution. We determined that Jersey City officials
calculated drawdowns based on the total expenditures reported in the city’s
latest FSR. Because Jersey City initially paid grant-related expenditures
using city funds and then drew down grant funds, we concluded that no
advance payments were made to the city.

Budget Management and Control

      The OJP Financial Guide addresses budget controls surrounding
grantee financial management systems. According to the Financial Guide,
grantees are permitted to make changes to their approved budgets to meet
unanticipated program requirements. However, the movement of funds
between approved budget categories in excess of 10 percent of the total
award must be approved in advance by OJP. In addition, the guide requires
that all grantees establish and maintain an adequate system for accounting
and internal controls. Inaccurate accounting systems or inadequate internal
controls can lead to fraud, waste, or abuse of government funds.

       Upon grant award approval, OJP provided a Final Clearance
Memorandum to Jersey City that contained the approved itemized budget for
the grant. To ensure the city remained within its approved budget, officials
told us they relied on a commercial accounting program that produced the
city’s Budget Detail Report. The Budget Detail Report included the total
grant expenditures summarized by each budget cost category. The final
approved budget for the grant and the expenditures reported in the city’s
Budget Detail Report are shown below.




                                   - 10 -
 Jersey City Budget versus Actual Expenditure Cost Comparison
                                   Budget Detail    Over (Under)
 Cost Category   Award Budget
                                   Expenditures       Budget

Travel                         $     52,400             $                0         ($52,400)

Equipment                          9,664,600                9,585,824               (78,776)

Contractual                         983,000                 1,040,120                57,120

Maintenance                                 0                  10,306                10,306

Furnishings                                 0                  11,690                11,690

Office Equipment                            0                  18,959                18,959

TOTAL                        $ 10,700,000               $10,666,899                ($33,101)

Sources: Office of Justice Programs and Jersey City financial records.

       OJP’s criteria of 10 percent of the total award applied to Jersey City’s
$10.7 million results in an allowable budget transfer of $1.07 million. The
chart above demonstrates that, according to the city’s Budget Detail Report,
movement of grant expenditures by cost category remained well within OJP’s
established guideline. However, the Budget Detail Report also indicates
grant expenditures were $33,101 under the city’s approved budget.
Moreover, as we reported earlier in this report, based on our calculation of
the actual grant expenditures using the invoices provided to support the
FSRs, the city’s grant expenditures exceeded the $10.7 million grant award
by $24,978. A summary of the total grant expenditures from the three
different financial sources we reviewed follows.

                      Jersey City Total Expenditure Comparison
                            Budget Detail            Financial               Supporting
                               Report              Status Report              Invoices

        Total
                                $10,666,899           $10,700,000             $10,724,978
     Expenditures

Source: Jersey City financial records.

      In our judgment, because Jersey City officials told us they spent the
entire grant award, the total grant expenditures shown on the Budget Detail
Report, the Financial Status Report, and the invoices supporting the FSR’s



                                            - 11 -
should have been equal. City officials told us that they believe the three
sources did not reconcile because of missing or double counted invoices.
Because we could not reconcile the accounting records supporting the
Budget Detail Report, we concluded the Budget Detail Report was inaccurate
and, as a result, the internal controls the city used to manage its grant
budget were less than adequate and improvements were warranted.

Monitoring of Contractors

      According to the OJP Financial Guide, grantees should ensure that they
monitor organizations under contract to them in a manner that ensures
compliance with their own overall financial management requirements. We
found no evidence to indicate that Jersey City conducted any formal
monitoring of its contractors outside of the review of invoice documentation.
At the time of our audit, a Jersey City official told us that it was considering
an ordinance to address its contractor monitoring procedures. The official
also told us that the city delegated some of its monitoring responsibilities to
one of its consultants, and the official believed that the police department
conducted site visits of some of its contractors but could not document the
results of those visits. We were also told that there were no written policies
or procedures in place to provide a framework for effective contractor
monitoring.

       More aggressive monitoring of Jersey City’s contractors could have
resulted in the consultants providing more detailed invoices and supporting
documentation for the work accomplished. From our audit, we concluded
that the city should have addressed this internal control shortcoming and
considered implementation of an aggressive contractor monitoring program
that included written policies and procedures. In our view, the absence of a
functional contractor monitoring program needlessly placed grant funds at
increased risk for possible misspending.

Accountable Property

      The OJP Financial Guide states that grantees are required to be
prudent in the acquisition and management of property acquired with federal
funds. The guide also requires that grantees establish an effective system
for property management.

      Jersey City officials told us that technical purchases were reviewed by
the office of Police Information Services. This office also received and
inventoried all equipment purchased. We reviewed documentation
supporting the handheld radios used by police officers and equipment found
in the city’s main communication center and verified that a sample of


                                     - 12 -
equipment purchased using grant funds was properly accounted for and
maintained. In performing our review, the police officers equipped with
grant-funded handheld radios told us that they had been trained to use the
radios, the radios were fully functional, and the radios increased their law
enforcement capabilities. We reviewed equipment purchased for the
communications system that was not operational and found that the
equipment was properly inventoried and marked as purchased with federal
funds. Based on our testing, we found no instances where Jersey City did
not meet OJP’s standards for accountable property.

Compliance with Award Special Conditions

       Special conditions include the terms and conditions for the award. The
special conditions may also include special provisions unique to the award.
We reviewed the special conditions found in Jersey City’s award and found
the city did not comply with two special conditions: (1) officials could not
document that they met the requirement to notify the State Information
Technology Point of Contact (State IT Contact) of the information technology
grant award, and (2) officials did not provide OJP with a task plan
summarizing the tasks required to complete the project prior to obligating
grant funds.

State Information Technology Point of Contact Notification

       This special condition required Jersey City to provide written
notification to its State IT Contact for any information technology projects
funded by the grant. The purpose of the notification was to facilitate
communication between the state and local governments that are
developing information technology projects. We found no evidence to
indicate the city notified its State IT Contact.

      Jersey City officials told us that they believed they provided the
required notification to the State IT Contact but they could not locate any
documentation to support their claim.

Obligation and Expenditure of Grant Funds Prior to Providing Task Plan

      Another special condition, acknowledged by a Jersey City official in
August 2003, directed the city to submit a detailed task plan to OJP within
30 days after accepting the award. According to the award letter, the task
plan should have included a description of all significant tasks associated
with the project, goals to be accomplished during the project period, and any
deliverables associated with the project. However, city officials did not
provide the task plan to OJP within the required 30 days. As a result, OJP’s


                                    - 13 -
program manager followed up with a letter in September 2004 reminding
the officials that no grant funds could be obligated or expended prior to the
submission of the task plan. In the same letter, OJP rescinded the sole-
source contracting authority it had previously granted to the city.

      We found that Jersey City officials submitted the task plan in October
2005, about 24 months after its due date in September 2003. Moreover, we
found that the city entered into contracts with two of its consultants prior to
the submission of the required task plan. This caused grant funds to be
obligated prior to submitting the task plan to OJP. In addition, the city also
paid one of the contractors over $600,000 in grant funds prior to the
submission of the task plan. Officials also paid over $200,000 to the second
consultant for work performed prior to the approval of the required task
plan.

       Officials told us that because the city needed to expend funds to
develop the required task plan, they believed the expenditures represented
an allowable expense. In our judgment, Jersey City officials should have
honored the special condition and not paid either consultant prior to OJP’s
approval of the task plan. Therefore, we question the full $1,125,000 that
officials paid to consultants as unallowable.

Program Performance and Accomplishments

       In the aftermath of the September 11 terrorist attacks in New York
City, Jersey City, an urban community directly across the Hudson River from
New York, requested federal funding under the SLEP program to replace its
out-dated public communications system. The replacement system was
designed to provide its public employees with new handheld radios that
would provide enhanced communications between city employees and a
state-of-the-art communications system through a series of towers
strategically placed around the city.

      At the time of our fieldwork, we determined that the August 2003
award for a communications systems project that initially was expected to
be completed in 24 months, had been extended six times. Although over
800 handheld radios had been delivered to city employees, the
communications towers were undergoing testing and the communications
system was not yet operational. Specific causes for the delays were difficult
to determine because Jersey City officials could not provide documentation
regarding the development and delays associated with the project.

     Jersey City officials delegated a significant amount of its grant
administration and management responsibilities to a consultant. For


                                    - 14 -
example, consultants were used to prepare the city’s progress reports and
city officials used the same consultant to oversee other contractors working
on the project. Even though the phases of the project and the work to be
performed by its consultant were well documented in the consultant’s
contract and the city’s grant application, the city and its consultant took over
2 years to submit the project plan that OJP expected within 30 days of the
award date. By the time the city submitted its project plan to OJP, the
project had fallen significantly behind schedule. However, we could find little
evidence documenting the reasons for the project’s delay or the proposed
solutions to what appears to have been a significant number of unforeseen
problems.

      Most troubling to us was the lack of support for the work performed by
Jersey City’s consultants. The principal consultant’s contract identified three
major phases of the project (design, implementation, and initial operation of
the system), identified the number of hours and the hourly rates to be paid
during each phase of the project, and stipulated that payments were to be
made based on the percentage of the project completed. However, none of
the invoices we reviewed for payment to the consultant included references
to the phase of the project, number of hours worked, hourly wages paid, or
the percentage of the project completed.

Conclusion

      We found that Jersey City did not fully comply with grant requirements
and applicable OMB guidance in several of the areas we tested. These areas
included: (1) internal controls, (2) grant expenditures, (3) financial and
programmatic reporting, (4) budget management and control,
(5) monitoring of contractors, (6) compliance with award special conditions,
and (7) program performance and accomplishments. As a result, we are
questioning $1,125,000, or about 10.5 percent of the entire grant award.

Recommendations

We recommend that OJP:

1. Remedy $1,125,000 in unsupported consultant expenditures that were
   not supported by detailed accounting records.

2. Ensure that Jersey City implements and adheres to internal control
   procedures that require consultant invoice billings include an explanation
   of the work performed and be sufficiently supported by detailed
   consultant documentation



                                     - 15 -
3. Ensure that Jersey City implements and adheres to internal control
   procedures that will result in the timely and accurate submission of
   Federal Financial Reports (formerly known as Financial Status Reports).

4. Ensure that Jersey City implements and adheres to internal control
   procedures that will result in the timely and accurate submission of
   complete, informative, and verifiable progress reports.

5. Ensure that Jersey City implements and adheres to internal control
   procedures to track verifiable expenditures by budget categories, to
   monitor budget versus actual spending on a consistent and ongoing basis,
   and to investigate any significant variances.

6. Ensure that Jersey City implements and adheres to written policies and
   procedures that adequately monitor contractors.

7. Ensure that Jersey City implements and adheres to internal control
   procedures that assure full and complete compliance with all of the award
   special conditions.

8. Remedy $1,125,000 in unallowable expenditures for obligation of funds
   prior to OJP’s approval of a detailed task plan.

9. Ensure that Jersey City holds its outside contractors fully accountable for
   meeting project deliverables and objectives, completes the grant-funded
   communications systems project without further delay, and fully explains
   the underlying reasons for any project delays and the steps taken to
   resolve the issues.




                                    - 16 -
                                                                APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines and the terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) grant
expenditures, (3) financial and progress reporting, (4) drawdowns,
(5) budget management and control, (6) monitoring contractors,
(7) accountable property, (8) compliance with award special conditions and
(9) program performance and accomplishments. We determined that
matching costs and program income were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit concentrated on, but was not limited to, the award of the
grant on August 18, 2003, through its administrative closeout on April 14,
2009. We audited BJA’s State and Local Emergency Preparedness Program.
Through the end of the grant award period - December 31, 2009 – Jersey
City drew down $10,700,000.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audited against are contained in the Office of Justice Programs
Financial Guide, applicable OMB Circulars, and the award documents.

      In conducting our audit, we tested Jersey City’s grant activities in the
following areas: grant expenditures, progress and financial reporting,
drawdowns, accountable property, monitoring contractors, budget
management and control, compliance with award special conditions, and
program performance and accomplishments. In addition, we reviewed the
internal controls of Jersey City’s financial management system specific to the
management of DOJ grant funds during the grant period under review.
However, we did not test the reliability of the financial management system
as a whole. We also performed limited tests of source documents to assess




                                    - 17 -
the accuracy and completeness of reimbursement requests and financial
status reports. These tests were expanded when conditions warranted. We
judgmentally selected a sample of 5 of the 838 radios purchased with grant
funds. We also judgmentally selected a sample of 5 items from the
228 pieces of equipment located at the communications center that was still
under construction.




                                   - 18 -
                                                                           APPENDIX II 



                 SCHEDULE OF DOLLAR-RELATED FINDINGS



QUESTIONED COSTS:                                        AMOUNT            PAGE 


Unsupported Consultant Expenditures                       $ 1,125,000          8

Unallowable Consultant Expenditures for
Noncompliance with Award Special Conditions                $1,125,000         14

Total questioned costs:                                      2,250,000

 Less Duplication5                                          (1,125,000)

TOTAL DOLLAR-RELATED FINDINGS:                            $1,125,000

Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




       5
          We questioned costs related to consultant payments. The questioned costs relate to
identical expenditures – though questioned for different reasons – and, as a result, that
portion of questioned costs is duplicated. We reduced the amount of costs questioned by the
amount of this duplication.


                                           - 19 -
                                                                                                             APPENDIX III 



                                  JERSEY CITY, NEW JERSEY 

                             RESPONSE TO THE DRAFT AUDIT REPORT 




                                    JERSEY CITY POLI CE DEPA lnM ENT
                                               OFFI CE OF THE CHIEF
                                                          8 Eric Slr..'d
                                                k1SC), C il~·. New J..Tse)' 07302
                                               10 1·547·.5301 Fa~ 201·547.4<)1)                               T'fO\' A~   C," , .. V
110""':. J, """\I'A"   Ih ,,~,.
         MA,"' *                                                                                              Cin'   II I'....n


                                                             Feuruary 11. 20 II

          Thomos O. I' uerzer, Regional Audit       M<lll~yer
          U.S. Depnrlmcnt of Justice
          Office ofthelnspcl:tor General
          Philadelphia Regional Andit Office
          101 Mnrkel SII"Cel. Suile 20 1
          PhilRdelphia. PA 19106

          Dear Mr. I'llero/:cr:

                   A ncr consull;]tion with tbe Mayor :lntl Bllsines~ Administr..lor of Ihe eil)' of Jersey Cil),.
          ;. witS detenuilll!d Ih31 as the Chief of Polie~. i. would De 3ppropriale (Or me .0 respond 10 the
          draft 3udil Ihat you forw3rd ed 10 Ihe City 011 January 2 1, 2011. We n1!lee with many or thc
          findings of the dr.ln mKlil report and we hal'e all\'ady begun 10 lake remcdii'll mCilsmes to addr~'ss
          Ihem. HOW;;\·C1. we would like 10 cxplain some or Ihe unique circumslances that surrounded the
          implementation of th is project. And irnporl'lIuly. Ihc Cily is pleased 10 inform YOll Ihat lh;]nks to
          lhe auistilm.:c or Ihe federal gOI'emmenl . the Jersey City Police Department hilS been able to
          s11ceess(ull y Iid!1 olle or the mostteehllologic;)Uy i1d"':lnced voi,,;e r:ldi o cOmmunic.lIIions systems
          in the n:ltinn. AlLhough delnyed. we nfe pro\ld to say Ihal this plOjcel 11'11$ completed on b\ldgcl.
          lind the system's cilpabil ities hlll'c exceeded nil expcc talions.

                   Tiler\: were l11i1n)' difficulties on Ihe mild to complt:ti on o f this project. The untimciy
          dCillh of MiI)"Or Glcn D. Cunningham in lhc spring or 1004 triggercd several c1mnges or
          adminiSlr.uion liS well .:IS eOllscqlleminl chan!:;~s in lhe sl:,mng o( our Grimt's o ffice. Before Iht:
          current Adl11illi.~If1ltion. there was n si~ mOlllh inrcrim mil)'oe" nl ndl11inislrn tion before a spel;ial
          elcl;tioll could be held. Because o f th ese personnel I;lull1j;es. il was dit"Jil;ult 10 ensure lhe proper
          transfer o f knowledge amollg personnel regHrdi nl; Ihe ad rnil\isll':l1ioll of the gran t.

                   hi Novcmber of 1004. lcrmlniuh T. Hcoly was eleeled Mayor. AI Ihllt lime. I WilS a
          Lieutcn:l1lt. working in Ihe cnp<1cil), or ChicI' or SHIIT to the new Chief of Police. Th..: Polil:c
          Dep<1rtlllenl was facing many cll;]llenges. one or wh ich was the illlpiemenlatioll of our ncw
          commun ica tions system. The Cil},S building. both sl rtlelllTillly lind opt!ri'lti onall~ ·. lit Pol icc
          Headquart ers (8 Eric StTter) WitS detcTlor:'lIUlg 1":'1)1(11 ),. Mayor lienl}' emphasized the need tor n
          new eOlllmunicntions centu.

                   In conjunction wi lh lhe acceplanee of IIii.' r.ldi o S)'Sh!m projeci gran t. the CilY deemed it
          IlCcesso1IY to Sil1\uit31lC0l1sIy eonSlruct .. radlil Y c.1.pablc or meeting the nccds of lhe new radio
          system projl;cl due 10 lhe age and dililpidated eOl wiilions o rllle filcility ill fl Eric Srreet The City
          lIIade a conscious decisioll to acceplll smnll amount of 3dditi(lnit l dc1l1 Y 1 brin!! bolh projecls 10
                                                                                             0
          completio n si multaneously. This providc(t the Cily wilh Ihe lIbili ty tn :!chie ... e COSI sa ... ings in the




                                                            - 20 -
overall purchase of the radio system, safeguarded the equipment against possible damage when
moved from 8 Erie Street to the new facility, and avoided any disruption to provision of public
safety services to the citizens of Jersey City. Each of the steps outlined above was
communicated to and approved by both our point of contact at the State and to the COPS office
at USDOJ.

        Early in this process the~ was a question regarding the appropriate method of
procurement and award for the purchase of the radio system. The delay in reaching this decision
brought the City close to the initial expiration period for the grant. The proper method of award
was being deliberated by the Department of Justice and the New Jersey Department of
Community Affairs, Division of Local Government Services. I requested the Corporation
Counsel to provide assistance and guidance in navigating this increasingly complex issue so that
the grant would not be lost. I attach a copy of a letter from the Corporation Counsel to the
Department of Justice dated November 30, 2004 as Exhibit A. After several discussions with the
State Division of Local Goverrunent Services and the U.S. Bureau of Justice Assistance, the
Office of the Corporation Counsel was able to Secure an agreement from these two organizations
that the procurement would proceed as an open and competitive bid. A copy of a letter dated
December 23, 2004 from the Division of Local Goverrunent Services confirming the
communications and ultimate agreement among the City, the State, and the Bureau of Justice
Assistance is attached hereto as Exhibit B.

        In addition to receiving guidance from the State Division of Local Government Services
regarding the appropriate method to acquire the radio system, the City also received guidance
from the then Chief of Public Safety Communications for the State. This individual had also
been appointed as the City's State Infonnation Technology point of contact. I am attaching
several examples of correspondence between the City Corporation Counsel and the State's Chief
of Public Safety Communication as Exhibit C. Additionally, the City's internal advisor for
technological issues, Police Officer and Senior Systems Administrator John Uaczyk, had
numerous in person meetings with the State IT contad. However, this individual left the service
of the State, was replaced briefly, and then the State eliminated the position. Absent the
appropriate State representative, it was difficult for my staff to continue ~ontact with the State as
per the special conditions of the grant.

        The City agrees that, in many instances, there was insufficient support for. the invoices
being submitted by its consultant for the project (however, our review of the audit seems to
indicate that some o f the contested invoices were for software and hardware, not consulting
services, please see Exhibit D). Steps were taken as early as 2004 to correct this situation. In
fact, the Office of the Corporation Counsel pointed out in July 2004 that the consultant's
invoices lacked sufficient support. Attached as Exhibit E is a memorandum from the Office of
the Corporation Counsel to that effect. The City is currently in the process of drafting revised
written procedures that will enable the City to manage contractor performance and payment
more proficiently in the future.

        After it was confirmed by the State and federal government in December 2004 that a
bidding process would be utilized to procure the radio system, the City directed its consultant to
prepare bid specifications. At the time, the consultant had been paid $745,000 and had $130,000




                                             - 21 -
in bills outstanding on its $900,000 lump sum contract. One of the steps taken by the City was to
suspend additional payment to the consultant. The consultant demanded payment of the
outstanding invoices and a change order in the early spring of 2005. Corporation Counsel was
able to secure an agreement from the consultant that it would finish its contact obligations for the
lump sum amount of $900,000 and that a change order would only be considered after all of its
contractual obligations were satisfied. The City agreed to this course of action in light of the
impending grant deadline, and its need forthe consultant's expenise in the preparation of the bid
specifications. A copy of a letter dated May 24, 2005 from Corporation Counsel confinning the
consultant' s agreement is attached hereto as Exhibit F. From that point, the consultant
successfully assisted the City with the procurement of the radio system and its implementation.
Ultimately, the consultant requested $373,015 in additional payments which were rejected. After
review by the Police Department's IT stafT and Office of the Corporation Counsel, a reduced
change order in the amount of$128,160 was later agreed upon. submitted to the City Council,
and approved. Attached as Exhibit G is a request for change order submitted by the consultant
dated June 6, 2008.

        One of the key concerns noted in the draft report is that the City obligated grant funds
prior to OJP's approval of a detailed task plan. It should be noted that the submission of a
detailed task plan was a necessary component of the initial grant application and its approval.
There are several samples of task plans that were provided to OJP attached as Exhibit H.

       Although a significant amount of the funds in question were appropriated and spent eight
years and several administrations ago, the City acknowledges that it is important that the City
promulgate and enfolt:e written procedures to ensure that the work of its contractors and
consultants is sufficiently monitored. In that regard, the Office of the Business Administrator,
the Purchasing Agent, and Corporation Counsel are working on revised procedures.

        I would like to reiterate that the City was ultimately successful in procuring a state of the
art radio system on budget and that the radio system far exceeded the City's expectations. It
would have been impossible to obtain this radio system without the federal funds provided to the
City through this grant. Thanks to these grant funds, not only Jersey City, the entire New York
metropolitan area is a safer place today.



                                             ~~' n_                    ..
                                              T~OMAS COME;:;~
c:      Mayor Jerramiah T. Healy
        Jack Kelly, Business Administrator
        Sam Jefferson, Police Director
        William Matsikoudis, Corporation Counsel
        Elyse Gibbs, lCPD-Grants
        linda Taylor, OJP




                                             - 22 -
                                                                                APPENDIX IV


                        OFFICE OF JUSTICE PROGRAMS
                    RESPONSE TO THE DRAFT AUDIT REPORT


                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                  Office of Audit, Assessment, and Management



                                                  Washington, D.C. 20531




February 18, 2011


MEMORANDUM TO:                Thomas O. Puerzer
                              Regional Audit Manager
                              Office of the Inspector General
                              Philadelphia Regional Audit Office

FROM:                         Maureen A. Henneberg
                              Director

SUBJECT:                      Response to the Draft Audit Report, Office of Justice Programs,
                              Bureau of Justice Assistance, State and Local Emergency
                              Preparedness Program Grant to the City of Jersey City,
                              Jersey City, New Jersey

This memorandum is in response to your correspondence, dated January 21, 2011, transmitting
the subject draft audit report for the City of Jersey City (Jersey City). We consider the subject
report resolved and request written acceptance of this action from your office.

The report contains nine recommendations and $1,125,000 in questioned costs. The following is
the Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1.	    We recommend that OJP remedy the $1,125,000 in unsupported consultant
       expenditures that were not supported by detailed accounting records.

       We agree with the recommendation. We will coordinate with Jersey City to remedy the
       $1,125,000 in questioned consultant expenditures, which were not supported by detailed
       accounting records, charged to grant number 2003-DD-BX-1014.


                                              - 23 -
2.	   We recommend that OJP ensure that Jersey City implements and adheres to
      internal control procedures that require consultant invoice billings include an
      explanation of the work performed and be sufficiently supported by detailed
      consultant documentation.

      We agree with the recommendation. We will coordinate with Jersey City to obtain a
      copy of procedures implemented to ensure that consultant invoice billings include an
      explanation of the work performed, and be sufficiently supported by detailed consultant
      documentation.

3.	   We recommend that OJP ensure that Jersey City implements and adheres to
      internal control procedures that will result in the timely and accurate submission of
      Federal Financial Reports (formerly known as Financial Status Reports).

      We agree with the recommendation. We will coordinate with Jersey City to obtain a
      copy of procedures implemented to ensure that future Federal Financial Reports (FFRs)
      are accurately prepared, reviewed and approved by management, and timely submitted to
      the U.S. Department of Justice (DOJ).

4.	   We recommend that OJP ensure that Jersey City implements and adheres to
      internal control procedures that will result in the timely and accurate submission of
      complete, informative, and verifiable progress reports.

      We agree with the recommendation. We will coordinate with Jersey City to obtain a
      copy of procedures implemented to ensure that future progress reports are timely and
      accurately prepared, approved by management prior to submission to the DOJ, and
      supporting documentation is maintained for future auditing purposes.

5.	   We recommend that OJP ensure that Jersey City implements and adheres to
      internal control procedures to track verifiable expenditures by budget categories, to
      monitor budget versus actual spending on a consistent and ongoing basis, and to
      investigate any significant variances.

      We agree with the recommendation. We will coordinate with Jersey City to obtain a
      copy of procedures implemented to ensure that: expenditures are tracked by budget
      categories; consistent monitoring of budgeted costs versus actual costs is conducted for
      each grant; and any significant variances are investigated and timely addressed.

6.	   We recommend that OJP ensure Jersey City implements and adheres to written
      policies and procedures that adequately monitor contractors.


                                           - 24 -
      We agree with the recommendation. We will coordinate with Jersey City to obtain a
      copy of procedures implemented to ensure that Jersey City adequately monitors its
      contractors.

7.	   We recommend that OJP ensure that Jersey City implements and adheres to
      internal control procedures that assure full and complete compliance with all of the
      award special conditions.

      We agree with the recommendation. We will coordinate with Jersey City to obtain a
      copy of procedures implemented to ensure that Jersey City complies with all Federal
      award special conditions.

8.	   We recommend that OJP remedy the $1,125,000 in unallowable expenditures for
      obligation of funds prior to OJP’s approval of a detailed task plan.

      We agree with the recommendation. We will coordinate with Jersey City to obtain
      documentation regarding the questioned unallowable expenditures charged to grant
      number 2003-DD-BX-1014, and will request a final determination from the Bureau of
      Justice Assistance (BJA) regarding the allowability of fees paid to a consultant prior to
      BJA’s approval of a detailed task plan for the grant. If the expenditures are determined to
      be unallowable, we will request that Jersey City return the funds to the DOJ, and submit a
      revised final FFR for the grant.

9.	   We recommend that OJP ensure that Jersey City holds its outside contractors fully
      accountable for meeting project deliverables and objectives, completes the grant-
      funded communications systems project without further delay, and fully explains
      the underlying reasons for any project delays and the steps taken to resolve the
      issues.

      We agree with the recommendation. We will coordinate with Jersey City to obtain a
      copy of procedures developed and implemented to ensure that outside contractors: are
      held accountable for meeting project deliverables and objectives; complete the grant-
      funded communications systems project; and fully explain the reason for any project
      delays, and the steps taken to resolve the issues. In addition, we will request that Jersey
      City provide documentation to support that the communication system has been
      completed and implemented.




                                            - 25 -
We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Eileen Garry
        Deputy Director
        Bureau of Justice Assistance

        Amanda LoCicero 

        Audit Liaison 

        Bureau of Justice Assistance 


        Naydine Fulton-Jones
        Program Manager
        Bureau of Justice Assistance

        Richard Theis

        Assistant Director

        Audit Liaison Group 

        Justice Management Division 


        OJP Executive Secretariat 

        Control Number 20110080 





                                            - 26 -
                                                                  APPENDIX V 



   OIG, AUDIT DIVISION, ANALYSIS AND SUMMARY OF ACTIONS 

               NECESSARY TO CLOSE THE REPORT 


       The OIG provided a draft of this audit report to the City of Jersey City,
New Jersey (Jersey City) and the Office of Justice Programs (OJP). Jersey
City’s response is incorporated in Appendix III, and OJP’s response is
incorporated in Appendix IV of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to close the
report.

      Because Jersey City’s response addressed issues raised in our report in
general terms and responded to information in our report that did not
specifically pertain to our recommendations, we provide the following reply
to these statements before discussing the Jersey City and OJP specific
responses to each of our recommendations.

Analysis of Jersey City and OJP Responses

      In response to our audit report, Jersey City neither agreed nor
disagreed with most of our nine recommendations. Jersey City officials
provided a general overview of the problems they encountered administering
the grant. The problems noted by city officials included: (1) changes in city
government officials during the grant period, (2) the requirement to
construct a new facility to accommodate the grant-funded communications
system, and (3) inadequate written procedures to monitor consultant
performance and payment.

       Jersey City officials generally discussed the benefits of the grant-
funded advanced voice radio communications system, while also
acknowledging that problems were encountered in administering the grant
and getting the system operational within the grant prescribed timelines. In
their response, Jersey City officials said they were working on strengthening
internal controls and revising procedures specific to improving their
oversight of contractor performance and the payment process. These same
officials confirmed that, in some instances, invoices submitted by consultants
were not properly supported. However, they reviewed our audit and
commented that some of the questioned costs were inaccurate because we
included billings related to computer hardware and associated software.
Jersey City officials also acknowledged that, although they did not submit
the detailed task plan – as required by the award’s special conditions – a
task plan had been submitted as part of the application process.

      After our review of the Jersey City response to our audit, we concluded
that Jersey City still failed to comply with the terms and conditions of the

                                     - 27 -
grant as we detail in our report and this placed grant funds at risk for
possible waste and abuse because of the conditions we identified, including
the lack of effective functioning internal controls. Jersey City officials also
questioned our consultant billing costs stating that we incorrectly included
equipment charges. We reviewed our audit documentation and confirmed
our questioned costs were accurate because the total questioned costs of
$1,125,000 included a reduction of $476,976 for equipment invoices
charged to consultant contracts.

      In its response to our audit report, OJP concurred with our
recommendations and discussed the actions it will implement to address our
findings. As a result of OJP’s agreement to work with Jersey City, we
consider each of the recommendations resolved. The status and actions
necessary to close each recommendation, along with a discussion of the
responses from Jersey City and OJP, are provided below.

Summary of Actions Necessary to Close Report

1. Resolved. In its response, Jersey City officials did not address this
   recommendation directly but did acknowledge that consultant monitoring
   procedures were inadequate and said they are in the process of drafting
   revised written procedures.

   The OJP response concurred with our recommendation to remedy
   $1,125,000 in unsupported consultant expenditures. OJP said that it will
   coordinate with Jersey City to remedy the unsupported consultant
   expenditures. This recommendation can be closed when we receive
   documentation demonstrating that OJP has remedied the $1,125,000 in
   unsupported expenditures.

2. Resolved. In its response, Jersey City officials did not address this
   recommendation directly but commented that they are drafting revised
   written procedures to address inadequate internal control procedures
   related to consultant invoice billing.

   The OJP response concurred with our recommendation to ensure that
   Jersey City implements and adheres to internal control procedures that
   require consultant invoice billings to include an explanation of the work
   performed, and be sufficiently supported by detailed consultant
   documentation. OJP plans to work with Jersey City to ensure it
   establishes appropriate internal management controls over its consultant
   billing process. This recommendation can be closed when we receive
   documentation demonstrating that Jersey City has established controls


                                     - 28 -
  that include the design and implementation of procedures that enable
  separate identification and accounting for each budget category described
  in the award. The revised budget controls should allow for ongoing
  budget versus cost comparisons.

3. Resolved. In its response, Jersey City officials did not address this
   recommendation directly but noted that changes in the city government
   and to the grant management staff contributed to the city’s problems
   with administering the grant.

  The OJP response concurred with our recommendation to ensure that
  Jersey City implements and adheres to internal control procedures that
  will result in the timely and accurate submission of Federal Financial
  Reports (formerly known as Financial Status Reports). OJP plans to work
  with Jersey City to ensure it establishes procedures that result in the
  timely and accurate submission of Federal Financial Reports. This
  recommendation can be closed when we receive documentation
  demonstrating that Jersey City developed and implemented effective
  financial reporting management controls.

4. Resolved. In its response, Jersey City officials did not address this
   recommendation directly but noted that changes in the city government
   and to the grant management staff contributed to the city’s problems
   with administering the grant.

  The OJP response concurred with our recommendation to ensure that
  Jersey City implements and adheres to internal control procedures that
  will result in the timely and accurate submission of complete, informative,
  and verifiable progress reports. OJP said that it will work with Jersey City
  to ensure it establishes procedures that result in the timely and accurate
  submission of Progress Reports. This recommendation can be closed
  when we receive documentation demonstrating that Jersey City
  developed and implemented effective progress reporting management
  controls.

5. Resolved. In its response, Jersey City officials did not address this
   recommendation directly but noted that changes in the city government
   and to the grant management staff contributed to the city’s problems
   with administering the grant.

  The OJP response concurred with our recommendation to ensure that
  Jersey City implements and adheres to internal control procedures to
  track verifiable expenditures by budget categories, to monitor budget


                                   - 29 -
   versus actual spending on a consistent and ongoing basis, and to
   investigate any significant variances. OJP said that it will work with
   Jersey City to develop procedures that ensure: (1) expenditures are
   tracked by budget category, (2) consistent monitoring of budgeted costs
   versus actual costs is conducted for each grant, and (3) any significant
   variances are investigated and addressed in a timely manner. This
   recommendation can be closed when we receive documentation
   demonstrating that Jersey City developed and implemented effective
   budget management controls.

6. Resolved. The Jersey City response did not address this
   recommendation directly.

   The OJP response concurred with our recommendation to ensure that
   Jersey City implements and adheres to written policies and procedures
   that adequately monitor contractors. OJP plans to work with Jersey City
   to ensure it establishes procedures to adequately monitor contractors.
   This recommendation can be closed when we receive documentation
   demonstrating that Jersey City developed and implemented effective
   contractor monitoring management controls.

7. Resolved. The Jersey City response did not address this
   recommendation directly.

   The OJP response concurred with our recommendation to ensure that
   Jersey City implements and adheres to internal control procedures that
   assure full and complete compliance with all grant award special
   conditions. OJP plans to work with Jersey City to establish procedures
   that ensure full and complete compliance with the grant award’s special
   conditions. This recommendation can be closed when we receive
   documentation demonstrating that Jersey City developed and
   implemented internal management controls that address the grant
   award’s special conditions.

8. Resolved. In its response, Jersey City officials did not address this
   recommendation directly but noted that although they did not submit the
   detailed task plan – as required by the award’s special conditions - a task
   plan had been submitted as part of the application process.

   The OJP response concurred with our recommendation to remedy
   $1,125,000 in unallowable expenditures for obligation of funds prior to
   OJP’s approval of a detailed task plan. OJP said that it will coordinate
   with Jersey City to remedy the unallowable expenditures. This


                                    - 30 -
   recommendation can be closed when we receive documentation
   demonstrating that OJP has remedied the $1,125,000 in unallowable
   expenditures.

9. Resolved. In its response, Jersey City officials did not address this
   recommendation directly but said the requirement to construct a new
   facility to accommodate the grant-funded communications system
   significantly impacted their ability to complete the project in a timely
   manner.

   The OJP response concurred with our recommendation to ensure that
   Jersey City holds its outside contractors fully accountable for meeting
   project deliverables and objectives, completing the grant-funded
   communications systems project without further delay, and fully
   explaining the underlying reasons for any project delays and the steps
   taken to resolve the issues. OJP plans to coordinate with Jersey City to
   obtain a copy of procedures developed and implemented to ensure that
   outside contractors: (1) are held accountable for meeting project
   deliverables and objectives, (2) complete the grant-funded
   communications systems project, and (3) fully explain the reason for any
   project delays and the steps taken to resolve the issues. In addition, OJP
   will request that Jersey City provide documentation to support that the
   communication system has been completed and implemented. This
   recommendation can be closed when we receive documentation
   demonstrating that OJP determined the reasons for the delays in
   completing the communication project, addressed the steps taken by
   Jersey City to resolve the project delays, and confirmed the grant-funded
   work to implement the communication system is complete.




                                     - 31 -
